<html>
<title> - BIA MANAGEMENT OF INDIAN TRUST FUNDS, PART II</title>
<body><pre>[House Hearing, 103 Congress]
[From the U.S. Government Publishing Office]



 
                                BIA MANAGEMENT OF INDIAN TRUST FUNDS
  ______________________________________________________________________________________________   
  
                                             HEARING
                                                
                                             BEFORE THE
                                              
                                 SUBCOMMITTEE ON NATIVE AMERICAN AFFAIRS                          
                                    
                                              OF THE                                              
                                               
                                 COMMITTEE ON NATURAL RESOURCES                                        
                                         
                                    HOUSE OF REPRESENTATIVES                                     
                                      
                                     ONE HUNDRED THIRD CONGRESS
                                     
                                           SECOND SESSION
                                             
                                                 ON
                                                 
                                              H.R. 1846
                                              
                    TO REQUIRE THE SECRETARY OF THE INTERIOR TO PAY INTEREST ON
                     INDIAN FUNDS INVESTED, TO AUTHORIZE DEMONSTRATIONS OF NEW
                      APPROACHES FOR THE MANAGEMENT OF INDIAN TRUST FUNDS, TO
                      CLARIFY THE TRUST RESPONSIBILITY OF THE UNITED STATES WITH
                      RESPECT TO INDIANS, TO ESTABLISH A PROGRAM FOR THE TRAINING
                          AND RECRUITMENT OF INDIANS IN THE MANAGEMENT OF
                     TRUST FUNDS, TO ACCOUNT FOR DAILY AND ANNUAL BALANCES ON
                   AND TO REQUIRE PERIODIC STATEMENTS FOR INDIAN TRUST FUNDS,
                                     AND FOR OTHER PURPOSES
                                     
                                         H.R. 4833
                                         
                      TO REFORM THE MANAGEMENT OF INDIAN TRUST FUNDS, AND FOR
                                       OTHER PURPOSES                        
                                    ___________________
                                     
                              
                                 HEARING HELD IN WASHINGTON, DC
                                         AUGUST 11, 1994
                                    ______________________      
                                 
                                      Serial No. 103-48 PART II
                                     _____________________                                 
                                     
                               
                                     
                Printed for the use of the Committee on Natural Resources
                
                
                
                
                

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]





                               U.S. GOVERNMENT PRINTING OFFICE
                               
  84-706                                WASHINGTON : 1994
  _____________________________________________________________________________________
  
                     For sale by the U.S. Government Printing Office
                     
    Superintendent of Documents, Congressional Sales Office, Washington, DC 20402

                                 ISBN 0-16-046325-4
                                 
                                 
                                 

 [TEXT NOT AVAILABLE]



</pre></body></html>
